                U.S. Department of Energy
                Office of Inspector General
                Office of Audit Services




Summary of Audit Report
National Nuclear Security
Administration's Use of Innovative
Technologies to Meet Security
Requirements

This document provides a summary of an Audit Report that is not
publicly releasable. Public release is controlled pursuant to the
Freedom of Information Act




OAS-L-09-02                                October 2008
 Thefollowing is a summary o f a Special Access Unclassified Controlled Nuclear Information Audit
 Report, OAS-L-09-02, dated October 31, 2008, entitled "National Nuclear Security Administration's
 Use o f Innovative Technologies to Meet Security Requirements. The com~letereport is not available
for public disclosure.


BACKGROUND

The Department of Energy (Department) developed the Design Basis Threat policy (DBT), which
identified the most credible threats posed by potential adversaries to Departmental assets and
operations. Since the terrorist attacks of September 2001, revisions to the DBT have established
significantly more stringent standards for protecting Departmental assets and operations. The DBT
provides decision-makers and managers with the information needed to plan permanent upgrades to
security programs and to identify the necessary resources for protecting sensitive assets, including
special nuclear material.

In 2003, the Secretary of Energy emphasized the need to maximize the use of innovative security
technologies to meet the DBT requirements. Based on the importance of securing special nuclear
materials and the Secretary's emphasis on deploying innovative technologies, we conducted this audit
to determine whether the Department's National Nuclear Security Administration (NNSA) had made
progress in deploying innovative security technologies to meet security requirements.

RESULTS OF AUDIT

NNSA made significant progress in deploying innovative technologies to meet the DBT requirements.
Specifically, six NNSA sites that possessed special nuclear materials deployed 75 technology upgrades
by the end of Fiscal Year 2006 at a cost of about $63 million. While progress had been made by
NNSA sites in deploying technologies, a few technologies had not performed as expected and some
maintenance requirements were more than anticipated by NNSA sites. For example, sites which had
deployed infrared radar systems incurred annual maintenance costs that were nearly as much as the
purchase price.

NNSA sites did not always analyze and evaluate technologies under actual operating conditions before
selecting them for deployment. Specifically, NNSA sites did not have key performance and
maintenance requirements data that was validated for actual site operating conditions to use in the
selection of technologies. Rather, the sites used data from other sources, such as the military and
commercial vendors that was not based on their operating conditions. For example, the performance
data used to select the infrared radar systems was obtained from the vendors and the military. This
data, however, was not based on the 24 hours a day17 days a week operating conditions at NNSA sites.
As a result, some of the selected technologies were not as reliable as expected and some maintenance
requirements were greater than the sites anticipated.

Site officials had limited time to identify and select technologies before procuring and installing
upgrades by the end of Fiscal Year 2006, as required by the Department. Further, NNSA told us that
in the past they had used validated performance data that had been developed by Sandia National
Laboratories. However, Sandia's validation of performance data was unavailable due to budget
constraints.

During the audit, the Department and NNSA took steps to improve the availability of technology
performance and maintenance data. We made further suggestions regarding the use of validated
performance data in the selection of security technologies.
